Le
I

C@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-310
ROBERT JAMES KEACH,

Estate Representative of the Post-Effective Date
Estate of Montreal Maine & Atlantic Railway, Ltd.,
Petitioner,

v.

NEW BRUNSWICK SOUTHERN RAILWAY
COMPANY LIMITED and
MAINE NORTHERN RAILWAY COMPANY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 7275 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 9th day of October, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Nebraska
F RENEE J, GOSS Konse. 9. ew, Qudrau- Kh. Chk

My Comm. Exp. September 5, 2023
Notary Public

 

Affiant 40203
